2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
{402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-1700
ULTRATEC, INC.,
Petitioner,
V.

CAPTIONCALL, LLC AND THE DIRECTOR OF
THE U.S. PATENT AND TRADEMARK OFFICE,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the REPLY BRIEF IN
SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.l(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2979 words,
excluding the parts that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 15th day of October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-State of Nebraska
RENEE J. GOSS
My COmm. Exp. September 5, 2023

Affiant

41523

